HHS/OIG, Audit -"Emergency Response to Hurricanes Katrina and Rita: Audit of Program Support Center’s Procurement Process for Contract HHSP233200500328A with Cardinal Health 200, Inc.,"(A-03-06-00503)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Emergency Response to Hurricanes Katrina and Rita: Audit of Program Support Center’s Procurement Process for Contract HHSP233200500328A with Cardinal Health 200, Inc.," (A-03-06-00503)
June 21, 2006
Complete Text of Report is available in PDF format (258 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Program Support Center (PSC) complied with applicable Federal Acquisition Regulations and Health and Human Services Acquisition Regulation requirements while making the involved procurement.   PSC procurement officials  complied with Federal acquisition requirements during the award process of  $1,383,180 for Contract  HHSP233200500328A to Cardinal Health 200, Inc., for provision of services to hurricane victims.  Because this report contained no recommendations, no response was necessary.